/

•\
j

-V-'

i

T

A

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 19-10428
District Court Docket No.
1:17-cv-OOl 98-MW-CJK
LIONEL ROBINSON,
Petitioner - Appellant,
versus
STATE ATTORNEY FOR FLORIDA,
Respondent,
and
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
Appeal from the United States District Court for the
Northern District of Florida
JUDGMENT

,hat,he °pinion issued - “• —*
Entered: April 06, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

ISSUED AS MANDATE 08/27/2020

appeal is

4- .
•A

Case: 19-10428

Date Filed: 04/06/2020

Page: 1 of 11

V'

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-10428
Non-Argument Calendar
D.C. Docket No. l:17-cv-00198-MW-CJK

l;

LIONEL ROBINSON,

Petitioner-Appellant,
versus

STATE ATTORNEY FOR FLORIDA,
Respondent,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.

Appeals from the United States District Court
for the Northern District of Florida
(April 6,2020)
Before QRANT, LUCK and FAY, Circuit Judges.
PER CURIAM:

t'

A

Case: 19-10428

Date Filed: 04/06/2020

Page: 2 of 11

^ V-

Lionel Robinson appeals the district court’s denial of his 28 U.S.C. § 2254
petition. We affirm.
I. BACKGROUND
In May 2012, a Florida juiy found Robinson guilty of robbery with a firearm
and tampering with evidence. The state circuit court adjudicated Robinson guilty
and sentenced him to 30 years in prison for the robbery count and 5 years in prison
for the evidence tampering count, to be served concurrently. In October 2013, the
Florida First District Court of Appeal (“First DCA”) affinned the judgment.
Robinson v. State, 123 So. 3d 565 (Fla. Dist. Ct. App. 2013) (Table).
In October 2014, Robinson formally retained postconviction counsel David
Jay Bernstein. The terms of Bernstein’s representation provided that he was “to
research, prepare, and file a [Florida Rule of Criminal Procedure 3.850] Motion;
reply to any government answer; and file objection to magistrate judge’s Report
and Recommendation if necessary”; the agreement did not mention a federal
remedy. According to Robinson, he wrote Bernstein on October 24,2014, and
November 18,2014, to ask why Bernstein had not contacted him or his family;
Bernstein did not directly respond to those letters. On November 24,2014,
Bernstein filed a state habeas petition pursuant to Florida Rule of Appellate
Procedure 9.141 in the First DCA, alleging ineffective assistance of appellate
counsel. Bernstein mailed Robinson a copy of the pleading on December 4,2014.

Case: 19-10428

Date Filed: 04/06/2020

Page: 3 of 11

The First DCA denied the petition. Robinson v.State, 152 So. 3d 571 (Fla. Dist.
Ct. App. 2014) (Table).
After the Rule 9.141 petition was denied, Bernstein prepared and filed
Robinson’s original Rule 3.850 motion on February 12,2015. Bernstein provided
Robinson with a copy of the pleading on March 20,2015. On March 27,2015,
Robinson wrote Bernstein concerning “the status of 9.141”; Bernstein did not
respond. On July 24,2015, Bernstein filed an amended Rule 3.850 motion adding
an additional ground for relief. The state circuit court subsequently dismissed the
original and amended motions for lack of proper verification. On July 31,2015,
Bernstein mailed Robinson an amended Rule 3.850 motion and instructed him to
sign the oath and return it. Robinson signed and returned the verification to
Bernstein’s office on August 4,2015.
Upon returning to his office after tending to personal matters and being
notified that Robinson had executed the necessary oath, Bernstein contacted the
Assistant State Attorney and obtained the State’s consent to an extension of time
for Robinson to file his verified Rule 3.850 motion and the State’s waiver of any
state-law limitations defense to the late filing. The state circuit court granted the
extension of time; on Februaiy 3,2016, Bernstein filed the second amended Rule
3.850 motion, which the state circuit court considered as timely filed. On June 20,
2016, the state circuit court denied relief on the merits.
3

Case: 19-10428

Date Filed: 04/06/2020

Page: 4 of 11

Bernstein wrote Robinson on June 28,2016, advising him of the denial of
his postconviction motion. Bernstein stated that he could not identify a good-faith
basis to appeal; however, he informed Robinson of his right to appeal pro se.
Bernstein wrote that “this letter will mark the end of this firm’s representation of
you in this matter.” According to the letter of July 18,2016, Bernstein mailed
Robinson “all motions, answers and court orders” needed to file an appeal.
Robinson appealed pro se; the First DCA summarily affirmed and the mandate
issued on April 18,2017. Robinson v. State, 230 So. 3d 437 (Fla. Dist. Ct. App.
2017) (Table).
Robinson wrote Bernstein on April 5,2017, and April 21,2017, to inquire
about the status of the state habeas petition; on April 28,2017, Bernstein
responded and informed Robinson of all relevant filing dates and deadlines. On
May 15,2017, Robinson contacted the First DCA to inquire as to the status of his
Rule 9.141 petition; the First DCA replied three days later stating that it had denied
that petition on December 10,2014.
On July 31,2017, Robinson filed the instant pro se habeas corpus petition
pursuant to the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), 28 U.S.C. § 2254. He acknowledged that his petition was filed more
than one year after his judgment and sentence for robbery with a firearm and
evidence tampering had become final. However, he argued that he was entitled to

Case: 19-10428

Date Filed: 04/06/2020

Page: 5 of 11

rely on the doctrine of equitable tolling because his postconviction counsel had in
effect abandoned him and had allowed his federal time to expire before filing a
timely motion for postconviction relief. He attached copies of his correspondence
with Bernstein, as well as other documents. The State moved to dismiss the
petition as untimely.
A magistrate judge issued a report and recommendation (“R&R”),
recommending that Robinson’s motion be dismissed as time barred. As to whether
Robinson had demonstrated “extraordinary circumstances” such that he was
entitled to equitable tolling, the judge found that Bernstein had not abandoned
Robinson as he alleged. Regarding the specifics of Bernstein’s conduct, the judge
noted that:
Bernstein frequently communicated with [Robinson] and filed
necessary pleadings on his behalf throughout his representation.
Bernstein made two errors - failing to have [Robinson] sign and
properly verify the original Rule 3.850 motion in February 2015, and
failing to discover that [Robinson] returned the signed verification in
August 2015. These errors, however, amount to simple negligence or
excusable neglect, not abandonment, bad faith, dishonesty or other
misconduct rising to the level of an “extraordinary circumstance”.
The judge noted that Robinson relied heavily on a third alleged error_that
Bernstein had failed to promptly notify him that his state habeas petition had been
denied in December 2014; however, the judge found that, even assuming that
Robinson could prove the allegation, such conduct was merely negligent at worst.

5

r

\

Case: 19-10428

Date Filed: 04/06/2020

Page: 6 of 11

* A

As to whether Robinson’s allegations demonstrated that he had diligently
pursued his remedy, the magistrate judge found that:
A reasonably diligent prisoner who suspected, as [Robinson] did,
that counsel forgot to notify him of an important dispositive order, and
who had all the case information necessary to make an inquiry himself
with the clerk of court, would have made that effort far prior to the time
[Robinson] did. [Robinson] waited over two years - until May 15,2017
- to contact the First DCA to confirm his suspicion. Moreover, once
Bernstein confirmed to [Robinson] in his April 28,2017, letter that the
state habeas petition was denied on December 10, 2014, and that
[Robinson’s] federal habeas limitations period expired in early 2015,
[Robinson] inexplicably waited another 2Vi months, until July 31,2017*
to file his federal petition.
’
’
Accordingly, the judge concluded that Robinson had not been reasonably diligent.
In light of his findings, the judge stated that an evidentiary hearing would serve no
purpose because ‘the specific, non-conclusory facts and documents he proffers,
even if true, are not enough to make his petition timely under [28 U.S.C.] §
2244(d).”
Robinson filed objections to the R&R, generally restating his arguments.
The district court adopted the R&R over his objection and dismissed Robinson’s
motion. Following the dismissal of his motion, Robinson filed a notice of appeal.
We issued a certificate of appealability as to the following issues: 1) whether
the district court erred in its determination that Robinson was not entitled to
equitable tolling of the statute of limitations period; and 2) whether the district
court abused its discretion when it denied Robinson an evidentiary hearing,

Case: 19-10428

Date Filed: 04/06/2020

Page: 7 of 11

II. DISCUSSION
A. Equitable Tolling
We review de novo a district court’s decision to dismiss a 28 U.S.C. § 2254
petition and its decision to deny equitable tolling. San Martin v. McNeil, 633 F.3d
1257, 1265 (11th Cir. 2011). However, we review the district court’s findings as
to relevant facts, including the petitioner’s diligence, only for clear error. Id.
Under this standard, we must affirm a district court’s findings of fact unless ‘the
record lacks substantial evidence’ to support them.” Id. (quoting Lightning v.
Roadway Express, Inc., 60 F.3d 1551,1558 (11th Cir. 1995)).
AEDPA limitations period may be equitably tolled only if a prisoner shows
‘“(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way’ and prevented timely filing.”
Holland v. Florida, 560 U.S. 631, 649,130 S. Ct. 2549,2562 (2010) (quotingPace
v. DiGuglielmo, 544 U.S. 408,418,125 Si Ct. 1807,1814 (2005)). These “are not
blended factors; they are separate elements, both of which must be met before
there can be any equitable tolling.” Cadet v. Fla. Dep ‘tofCorr., 853 F.3d 1216,
1225 (11th Cir. 2017). The burden for proving equitable tolling “rests solely on
the petitioner” who cannot rely on “[m]ere conclusory allegations,” which “are
insufficient to raise the issue of equitable tolling.” San Martin, 633 F.3d at 1268.

Case: 19-10428

Date Filed: 04/06/2020

Page: 8 of 11

Equitable tolling is an extraordinary remedy that is applied sparingly. Arthur v.
Allen, 452 F.3d 1234,1252 (11th Cir. 2006).
In Cadet, we discussed “the appropriate standard for gauging when attorney
error amounts to an extraordinary circumstance.” Cadet, 853 F.3d at 1221. We
recognized that “attorney negligence, even gross or egregious negligence, does not
by itself qualify as an ‘extraordinary circumstance’ for purposes of equitable
tolling; either abandonment of the attorney-client relationship . .. or some other
professional misconduct or some other extraordinary circumstance is required.”
Id. at 1227. We explained that “while a petitioner is bound by his attorney’s
negligent mistakes, he is not bound by the actions or inactions of an attorney
occurring after the attorney has severed the principle-agent relationship by
abandoning his client.” Id. Abandonment is illustrated by not keeping a client
updated on essential developments, not responding to a client’s questions or
concerns, and severing communication with a client. Id. at 1234. Other examples
of qualifying attorney misconduct include, but are not limited to, “bad faith,
dishonesty, divided loyalty, and mental impairment.” Id. at 1236. “In considering
whether the conduct of counsel was extraordinary, we will not dissect the
continuing course of conduct in which counsel engaged, but rather view counsel’s
behavior as a whole.” Downs v. McNeil, 520 F.3d 1311,1323 (11th Cir. 2008).

s »

Case: 19-10428

Date Filed: 04/06/2020

Page: 9 of 11

Nothing in the record suggests that Bernstein effectively “severed the
principle-agent relationship by abandoning his client.” See Cadet, 853 F.3d at
1227. t Rather, the record indicates that Bernstein did exactly what he was hired to
do file a Rule 3.850 motion in state court and pursue that remedy to the fullest
extent possible. After learning that Robinson’s original and amended Rule 3.850
motions had been dismissed for lack of verification, Bernstein requested that
Robinson sign an oath so that the motion could be properly filed. Bernstein then
properly filed Robinson’s Rule 3.850 motion, which the state court denied on the
merits, and he informed Robinson of the outcome. In doing so, Bernstein not only
fulfilled the terms of his engagement, but ensured that Robinson was kept abreast
of the status of his case as it progressed. This does not resemble the sort of
scenario imagined in Cadet, in which we stated that an attorney might abandon his
client by severing all communication and foiling to update his client. Id. at 1234.
That is not to say that Bernstein’s representation was flawless; indeed,
taking Robinson’s allegations as true, Bernstein arguably was negligent on several
occasions, such as when he did not immediately notify Robinson that his state
habeas petition had been denied, or when he did not acknowledge that Robinson
had provided the requested oath until Robinson followed up with him by phone.
However, as we have acknowledged, negligence, even gross or egregious
negligence, does not, by itself, rise to the level of abandonment. Id. at 1227.

Case: 19-10428
v

Date Filed: 04/06/2020

Page: 10 of 11

V

Given that Bernstein appears to have generally attempted to keep Robinson
informed regarding the status of his case, and, moreover, that he ultimately
fulfilled the terns of his representation, his conduct is not of the kind that would
indicate attorney abandonment. Accordingly, Robinson has foiled t
o prove his
alleged extraordinary circumstance, and it is unnecessary for us to
whether Robinson was adequately diligent or not. See id. at 1225.
B. Evidentiary Hearing
A petitioner has the burden to show the necessity for an evidentiary hearing.
Birt V. Montgomery, 725 F.2d 587,591 (11th Cir. 1984) (en banc).

The decision as

to whether to hold a hearing on equitable tolling is discretionary, thus, appellate
courts do not reverse that decision unless the discretion was

Chavez v.

Secy, Fla. Dep’tof Corr., 647 F.3d 1057,1060 (11th Cir. 2011).

A court abuses

tts discretion only if it “applies an incorrect legal standard, follows improper
procedures in making the determination, or makes findings of fact that are clearly
erroneous.” Chicago Tribune Co. v. Bridgestone/Firestone Inc., 263 F.3d 1304,
1309 (11th Cir. 2001). If a habeas petition does not allege enough specific facts
that, if they were true, would warrant relief, the petitioner is not entitled to an
evidentiary hearing. Chavez, 647 F.3d at 1060-61.
Here, there is no indication that the district court incorrectly applied any
legal standard. See Chicago Tribune Co., 263 F.3d at 1309.
10

Rather, the district

•S»

i

l

%'

•/

Case: 19-10428
- N

Dale Filed: 04/06/2020

/

Page: 11 of 11

!
;
!

I

i
l

court, in determining that Robinso
n was not entitled to equitable tolling, properly
considered whether Robinson had b
een adequately diligent in pursuing his federal
remedy and whether his
attorney had abandoned his representation of Robinson.
See Holland, 560 U.S.
at 649,130 S. Ct. at 2562.
Given that the district court
determined that
an evidentiary hearing would serve n
O purpose, even accepting all
of Robinson’s allegations as true, i
it did not abu se its discretion in denying
Robinson’s request.
Chavez, 647 F.3d at 1060-61.
AFFIRMED.

!

f-

ti

11
T~

vs

Case l:17-cv-00198-MW-CJK Document 34 Filed 01/02/19 Page 1 of 1
s v

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
LIONEL ROBINSON
VS

CASE NO. 1:17cv198-MW/CJK

JULIE L. JONES, Secretary.
JUDGMENT
The Respondent’s motion to dismiss, ECF No. 22, is GRANTED. Petitioner’s
petition for writ of habeas corpus, ECF No. 1, challenging his judgment of conviction
and sentence in State of Florida v. Lionel L. Robinson, Alachua County Circuit Court
Case No. 2010-CF-4386, is DISMISSED with prejudice. A Certificate of Appealability is
DENIED.

JESSICA J. LYUBLANOVITS
CLERK OF COURT
4/
January 2. 2019
DATE

Deputy Clerk: TiAnn Stark

Case 1:17-cv-00}Om\/V-CJK Document 33 Filed 0/^19 Page 1 of 1
Case: 19-10428 Date Filed: 10/04/2019 Page: 562 of 566

In the united states district court for the
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
LIONEL ROBINSON,
Petitioner,
v.

Case No. l:17cv!98-MW/CJK

JULIE L. JONES, Secretary.
Respondent.

ORDER ACCEPTING REPORT AND RECOMMENDATION
This Court has considered, without hearing, the Magistrate Judge's Report and
Recommendation, ECF No. 29, and has also reviewed de novo Petitioner’s objections to the report
and recommendation, ECF No. 32. Accordingly,
IT IS ORDERED:
The report and recommendation is accepted and adopted, over Petitioner’s objections, as
this Court s opinion. The Clerk shall enter judgment stating, “The Respondent’s motion to dismiss,
ECF No. 22, is GRANTED'. Petitioner’s petition for writ of habeas corpus, ECF No. 1, challenging
his judgment of conviction and sentence sentence in State of Florida v. Lionel L. Robinson,
Alachua County Circuit Court Case No. 2010-CF-4386, is DISMISSED with prejudice. A
Certificate of Appealability is DENIED.” The Clerk shall close the file.
SO ORDERED on January 2, 2019.
s/Mark E. Walker __________
Chief United States District Judge

1
V

T

(<

,~

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 1 of 22
/

4
,.x.

Page 1 of22

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
GAINESVILLE DIVISION
LIONEL ROBINSON,
Petitioner,
\

v.

Case No. 1:17cvl98-MW-CJK

JULIE L. JONES,
Respondent.

REPORT AND RECOMMENDATION
Before the court is a petition for writ of habeas corpus filed under 28 U.S.C.
§ 2254.

(Doc. 1).

Respondent moves to dismiss the petition as time-barred,

providing relevant portions of the state court record. (Doc. 22). Petitioner opposes
the motion. (Doc. 28). The matter is referred to the undersigned Magistrate Judge
for a report and recommendation pursuant to 28 U.S.C. § 636 and N.D. Fla. Loc. R.
72.2(B). The undersigned concludes that no evidentiary hearing is required for the
disposition of this matter, and that petitioner’s habeas petition should be dismissed
as time-barred.

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 2 of 22

Page 2 of 22

BACKGROUND FACTS AND PROCEDURAL HISTORY
On May 3, 2012, a Florida jury found petitioner guilty of robbery with a
firearm and tampering with evidence in Alachua County Circuit Court Case No.
2010-CF-4836. (Doc. 22, Ex. A). The trial court adjudicated petitioner guilty and
sentenced him to 30 years in prison for the robbery and 5 years in prison for the
evidence tampering. (Doc. 1, p. 1). On October 17, 2013, the Florida First District
Court of Appeal (First DCA) affirmed the judgment per curiam without opinion.
Robinson v. State, 123 So. 3d 565 (Fla. 1st DCA 2012) (Table) (copy at Doc. 22, Ex.
B).
On November 24, 2014, petitioner, through counsel, filed a state habeas
petition in the First DCA alleging ineffective assistance of appellate counsel. (Doc.
22, Ex. C). The First DCA denied the petition on the merits on December 10, 2014.
Robinson v. State, 152 So. 3d 571 (Fla. 1st DCA 2014) (Table) (copy at Doc. 22, Ex.
D). Petitioner did not move for rehearing.
On February 12, 2015, petitioner, through counsel, filed a motion for
postconviction relief under Florida Rule of Criminal Procedure 3.850, which he later
amended on July 24, 2015. (Doc. 22, Ex. E, pp. 1-24 (original motion), pp. 25-52
(amended motion)). On July 24, 2015, the state court dismissed the motions as
procedurally deficient because they failed to comply with Rule 3.850(c)’s oath
Case No. l:I7cvl98-MW-CJK

4

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 3 of 22
“

.>

'■»

V

Page 3 of22

requirement. (Doc. 22, Ex. E, pp. 53-54). The dismissal was without.prejudice to
petitioner filing an amended, verified motion within sixty days. Petitioner filed a
second amended motion containing the requisite verification, (doc. 22, Ex. E, pp. ■
65-91), which was denied on the merits. (Doc. 22, Ex. E, pp. 94-233). The First
DCA summarily affirmed, with the mandate issuing April 18, 2017. Robinson v.
State, 230 So. 3d 437 (Fla. 1st DCA 2017) (Table) (copy at Doc. 22, Ex. G).
Petitioner filed his pro se federal habeas petition on July 31, 2017. (Doc. 1).
Respondent asserts the petition is time-barred. (Doc. 22). Petitioner concedes his
petition is untimely, but argues he is entitled to equitable tolling. (Doc. 1; Doc. 28).
DISCUSSION
Timeliness
Because petitioner filed his § 2254 petition after April 24, 1996, the effective
date of the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), the
AEDPA governs this petition. Lindh v. Murphy, 521 U.S. 320, 117 S. Ct. 2059, 138
L. Ed. 2d 481 (1997). The AEDPA establishes a 1-year period of limitation for a
state prisoner to file a federal application for a writ of habeas corpus. 28 U.S.C. §
2244(d)(1). The limitations period runs from the latest of:
(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;

Case No, 1:17cvl98-MW-CJK

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 4 of 22

Page 4 of22

(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the United
States is removed, if the applicant was prevented from filing by such
State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable to
cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
§ 2244(d)(1). The limitations period is tolled for “[t]he time during which a properly
filed application for State post-conviction or other collateral review” is pending. 28
U.S.C. § 2244(d)(2).
Petitioner has not asserted that a State-created impediment to his filing a
federal habeas petition existed, that he bases his claim on a right newly recognized
by the United States Supreme Court, or that the facts supporting his claims could not
have been discovered through the exercise of due diligence before his judgment
became final. Accordingly, the statute of limitations is measured from the remaining
trigger, which is the date on which petitioner’s judgment became final. See 28
U.S.C. § 2244(d)(1).
Petitioner’s judgment became final for purposes of § 2244(d), on January 15,
2014, which is ninety days after the First DCA’s October 17, 2013, affirmance of
Case No. l:17cv!98-MW-CJK

l

(V

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 5 of 22

Page 5 of22

the judgment. See 28 U.S.C. § 2244(d)(1); Bondv. Moora, 309 F.3d 770, 773 (11th
Gir. 2002) (holding that the statute of limitations under § 2244(d) did not begin to
run until the 90-day window for filing a certiorari petition with the United States
Supreme Court expired). The limitations period began to run one day later, on
January 16, 2014, and expired one year later, on January 16, 2015, absent tolling.
See San Martin v. McNeil, 633 F.3d 1257, 1266 '(l'lthCir. 2011)-(holding that
Federal Rule of Civil Procedure 6(a)(1) applies to calculation of AEDPA’s one-year
limitations period; thus, the limitations period begins to run from the day after the
day of the event that triggers the period); Downs v. McNeil, 520 F.3d 1311, 1318
(11th Cir. 2008) (holding that the limitations period should be calculated according
to the “anniversary method,” whereby the limitations period expires on the one-year
anniversary of the date it began to run).
Petitioner’s state habeas petition was filed 312 days after the limitations
period began to run. That petition was pending, and statutorily tolled the limitations
period, from November 24, 2014, (the date ifwas filed) until the 15-day period to
file a motion for rehearing expired. See Doc. 22, Ex. D (copy of First DCA’s opinion
including the statement, “NOT FINAL UNTIL TIME EXPIRES TO FILE MOTION
FOR REHEARING AND DISPOSITION THEREOF IF FILED”); see also Carey
v. Saffold, 536 U.S. 214, 219-20 (2002) (holding that a properly filed state
Case No. 1:17cvl98-MW-CJK

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 6 of 22

Page 6 of22

application for collateral review is “pending” within the meaning of 28 U.S.C. §
2244(d)(2), “as long as the ordinary state collateral review process is ‘in
continuance’ i.e., ‘until the completion of that process.”); Wade v. Battle, 379 F.3d
1254,1262 (11th Cir. 2004) (concluding that Georgia prisoner’s state habeas petition
remained pending for AEDPA purposes until Georgia’s 30-day deadline for filing
an application for review with the Georgia Supreme Court expired); Fla. R. App. P.
9.330(a) (“A motion for rehearing . . . may be filed within 15 days of an order or
within such other time set by the court.”). The First DCA denied petitioner’s habeas
petition on December 10, 2014; therefore, under Florida law he had until December
26, 2014,1 to file a motion for rehearing. Petitioner did not do so. Accordingly, his
state habeas petition remained pending for AEDPA purposes until December 26,
2014.
Petitioner’s federal clock began running again on December 27, 2014, and
expired 53 days later on February 17, 2015. Petitioner’s original and first amended
Rule 3.850 motions filed on February 12, 2015, and July 24, 2015, respectively, did
not toll the limitations period under § 2244(d)(2), because they did not contain the

1 Although the 15-day period expired on December 25, 2014, petitioner had until December 26,
2014, to file a motion for rehearing, because December 25, 2014, was a legal holiday. See Fla. R.
Jud. Admin. 2.514(a)(1) (providing that in circumstances like those here, where the last day of a
specified time period stated in days falls on a Saturday, Sunday, or legal holiday, the period
continues to run until the end of the next day that is not a Saturday, Sunday, or legal holiday).
Case No. l:17cvI98-MW-CJK

i

Case l:17?cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 7 of 22

t

Page 7 of22

written oath required by Florida law and therefore were not “properly filed”. See
Fla. R. Crim. P. 3.850(c); Fla. R. Crim. P. 987(1); Hurley v. Moore, 233 F.3d 1295,
1297 (11th Cir. 2000) (holding that a Rule 3.850 motion that fails to contain the
written oath required by Florida law, and that is stricken or dismissed by the state
court without prejudice with leave to amend, is not “properly filed” for purposes of
§ 2244(d)(2) and does not toll'the federal habeas limitations period). An additional
reason petitioner’s July 24, 2015, amended Rule 3.850 motion did not statutorily toll
the limitations period is because it was filed after petitioner’s federal filing period
expired. See Alexander v. Sec’y, Dep’t of Corr., 523 F.3d 1291, 1294 (11th Cir.
2008) (holding that a state court application for postconviction or other collateral
review cannot toll the limitations period if that period has already expired); Webster
v. Moore, 199 F.3d 1256, 1259 (11th Cir. 2000) (“A state-court petition . . . that is
filed following the expiration of the limitations period cannot toll that period because
there is no period remaining to be tolled.”).
Although petitioner’s second amended Rule 3.850 motion filed on February
3, 2016, contained the requisite oath, it was filed after the federal limitations period
expired, so it does not qualify for statutory tolling under § 2244(d)(2).

See

Alexander, supra; see also Sibley v. Culliver, 377 F.3d 1196, 1204 (11th Cir. 2004)
(holding that where state prisoner attempted to file postconviction motions in state
Case No. 1:17cv!98-MW-CJK

\

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 8 of 22

Page 8 of22

court after AEDPA limitations period expired, those attempted filings could toll thte
limitations period because: “once a deadline has expired, there is nothing left to
toll.”). Petitioner’s second amended motion could not resurrect AEDPA’s expired
limitations period by purporting to relate back to petitioner’s original February 12,
2015, postconviction motion, because the original motion, itself, was insufficient to
toll the limitations period. See Sibley, 37*7 F.3d at 1204 (stating that a federal habeas
petitioner “may not attempt to resurrect a terminated statute of limitations by
subsequently filing documents that purport to ‘relate back’ to previously submitted
documents that were, in themselves, insufficient to toll the statute.”); Melson v.
Allen, 548 F.3d 993, 997-98 (11th Cir. 2008) (relying on Sibley to hold that an
Alabama prisoner’s amended state postconviction petition, which was filed after
AEDPA’s limitations period expired, did not relate back to a previously submitted
petition that was filed prior to the deadline but dismissed by the state court for lack
of verification), vacated, on other grounds, 561 U.S. 1001 (2010);? see also, e.g.,
Jones v. Sec'y, Fla. Dep’t of Corr., 499 F. App’x 945, 950-52 (11th Cir. 2012)
(relying on Sibley and Melson to hold that Florida prisoner’s amended Rule 3.850

2Although Melson is no longer binding due to its vacatur by the Supreme: Court, see Melson v.
Allen, 561 U.S. 1001 (2010), that decision is still pertinent, given that it was vacated on grounds
unrelated to the issue at hand. See Jackson v. Ga. Dep’t of Transp., 16 F.3d 1573,1578 n. 7 (11th
Cir. 1994) (stating that an opinion vacated on unrelated grounds in a petition for rehearing had •
persuasive value).
Case No. l:17cvl98-MW-CJK

i

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 9 of 22
v1
Page 9 of22

postconviction motion which corrected verification deficiency but was filed after
AEDFA limitations period expired could not resurrect the expired limitations period
by purporting to relate back to the date of the original motion).
Petitioner’s federal habeas petition, filed on July 31,2017, is untimely by over
five years. Petitioner does not dispute his petition is untimely, but argues he is
entitled to equitable tolling for an Unspecified' period of days due to his
postconviction counsel’s bad faith and abandonment. (Doc. 1, pp. 29-48; Doc. 28,
pp.l-9).3Equitable Tolling
A federal habeas petitioner is entitled to equitable tolling “only if he shows
(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely filing” of his federal habeas
petition. Holland v. Florida, 560 U.S. 631, 6.49 (2010) (internal quotation marks
and citation omitted).

“The burden of proving circumstances that justify the

application of the equitable tolling doctrine rests squarely on the petitioner.” San
Martin, 633 F.3d at 1268 {citing Drew v. Dep’t of Corr.,291 F. 3d 1278, 1286 (11th
Cir. 2002)). Petitioner must allege more than conclusory allegations, San Martin,
633 F,3d at 1268, and must “show a causal connection between the alleged
ft

\

■

i

i

hi

■■■.......................................

■
K

3 Citation to page numbers of petitioner’s pleadings are to the numbers he assigned.
Case No. 1:17cvl98-MW-CJK

IS

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 10 of 22

Page 10 of 22

extraordinary circumstances and the late filing of the federal habeas petition.” Id. at
1267. Decisions regarding equitable tolling “must be made ‘on a case-by-case basis’
in light of ‘specific circumstances, often hard to predict in advance,’ although
[courts] ‘can and do draw upon decisions made in other-similar cases for guidance.’”
Hutchinson v. Florida, 677 F.3d 1097, 1098 (11th Cir. 2012) {quoting Holland, 560
U.S. at 650).
“The diligence required for equitable tolling purposes is reasonable diligence,
not maximum feasible diligence.” Holland, 560 U.S. at 653 (quotations omitted).
In Holland, the Supreme Court held that the district court erred in finding a lack of
diligence, where the petitioner not only wrote his attorney numerous letters seeking
\

crucial information and providing direction, he also repeatedly contacted the state
courts, their clerks, and the Florida State Bar Association in an effort to have his
attorney — the central impediment to the pursuit of his legal remedy - removed from
his case. Additionally, the very day the petitioner discovered his AEDPA clock
expired due to his attorney’s failings, he prepared his own habeas petition pro se and
promptly filed it with the district court.
The most recent binding precedent defining “the appropriate standard for
gauging when attorney error amounts to an extraordinary circumstance” is Cadet v.
Fla. Dep’t ofCorr., 853 F.3d 1216, 1221 (11th Cir. 2017). In Cadet, the court held
Case No. 1:17c\’198-MW-CJK

V

Case l:17-cw00198-MW-CJK Document 29 Filed 11/06/18 Page 11 of 22

Page 11 of22

that “attorney negligence, even gross or egregious negligence, does not by itself
qualify as an ‘extraordinary circumstance’ for purposes of equitable tolling; either
abandonment of the attorney-client relationship , . . . or some other professional
misconduct or some other extraordinary circumstance is required.” Id. at 1227
(footnote omitted) (emphasis in original) (discussing Lawrence v. Florida, 549 U.S.
327 (2007), Holland, supra, and Maples v. Thomas, 565 U. S. 266 (2012)). The court
in Cadet explained: “while a petitioner is bound by his attorney’s negligent mistakes,
he is not bound by the actions or inactions of an attorney occurring after the attorney
has severed the principle-agent relationship by abandoning his client.” Id. at 1227
(iciting Maples, 565 U.S. at 280-81). Abandonment “[is] illustrated by not keeping
a client updated on essential developments, not responding to a client’s questions or
concerns, and severing communication with a client”. Brown v. Sec y, Dep’t of
Corr., — F. App’x —, 2018 WL 4932715, at *12 (11th Cir. Oct. 11, 2018) (citing
Cadet at 1234). Other examples of qualifying attorney misconduct include, but are
not limited to, “bad faith, dishonesty, divided loyalty, and mental impairment.”
Cadet at 1236. “In considering whether the conduct of counsel was extraordinary,
we will not dissect the continuing course of conduct in which counsel engaged, but
rather view counsel’s behavior as a whole.” Downs, 520 F.3d at 1323.

Case No. 1:17cvl98-UW-CJK

/
/

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 12 of 22

i
•> „

Page 12 of22

Petitioner’s equitable tolling argument fails on both prongs of the Holland
standard. Concerning Holland's first prong, petitioner’s allegations and exhibits
establish that his postconviction counsel’s conduct, viewed as a whole, does hot
suggest abandonment or any other form of serious misconduct rising to the level of
an “extraordinary circumstance”.
Petitioner alleges the following to support his equitable tolling claim: (1) he
tasked his sister with finding and paying for an attorney who would contact
petitioner personally and promise to file a Rule 3.850 motion in time to preserve
petitioner’s one-year federal habeas filing deadline; (2) after all but 90 days of
petitioner’s federal filing deadline passed, petitioner’s sister found attorney David
Jay Bernstein; (3) Attorney Bernstein called petitioner and orally agreed to file a
Rule 3.850 motion before petitioner’s federal filing deadline expired; (4) on October
13; 2014, petitioner formally retained Attorney Bernstein to file a Rule 3.850
motion; (5) petitioner wrote Bernstein on October 24,2014, and November 18,2014,
asking why Bernstein had not contacted him or his family; (6) Bernstein did not
respond to petitioner’s letters and instead filed a state habeas petition on November
24, 2014; (6) petitioner wrote Bernstein on December 5, 2014, inquiring about the
status of the state habeas petition and asking Bernstein to call him; (7) on December
16, 2014, petitioner wrote Bernstein and told him his lack of communication was
Case No. J:17cvI98-MW-CJK

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 13 of 22

Page 13 of22

unprofessional; (8) on January 19, 2015, petitioner wrote Bernstein threatening to
file aFlorida State Bar Association complaint against him; (9) on February 11,2015,
Bernstein filed petitioner s original Rule 3.850 motion; (10) Bernstein did not send
petitioner a copy of the Rule 3.850 motion until March 20, 2015; (11) on March 27,
2015, petitioner wrote Bernstein “inquiring of the status of 9.141 because he was
unsure and under the impression that 9.141 might have got denied due to 3.850 being
•'U .

.

filed”, but Bernstein did not respond to the letter; (12) on July 31, 2015, Bernstein’s
office mailed petitioner an amended Rule 3.850 motion and instructed petitioner to
sign the oath and return it to Bernstein’s office; (13) petitioner returned the signed
oath on August 4, 2015; (14) petitioner’s next correspondence with Bernstein was
when Bernstein wrote him on June 28, 2016, to inform him that his Rule 3.850
motion was denied and Bernstein’s representation was concluded; (15) on April 5,
2017, and April 21, 2017, petitioner wrote Bernstein to inquire about the status of
the state habeas petition; and (16) Bernstein responded to petitioner’s letters on April
28, 2017, informing petitioner of all relevant dates, including documentation. (Doc.
1, pp. 31-39; Doc. 28).

Petitioner attaches various, documents to support his

allegations, including his retainer agreement with Bernstein (doc. 1, Ex. A);
affidavits from himself and his sister (doc. 1, Ex. B); various letters between himself

Case No. l:17cv!98-MW-CJK

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 14 of 22

Page 14 of 22

and Bernstein (doc. 1, Exs. E, F, G, J, L); and correspondence with the First DCA’s
clerk of court (doc. 1, Exs. H, I).
Petitioner’s documentary evidence establishes that Attorney Bernstein signed
the retainer agreement on October 13,2014. (Doc. 1, Ex. A). Bernstein’s obligation
under the retainer agreement was “to research, prepare, and file a 3850 Motion; reply
to; any government answer; and file objection to magistrate judge s Report and
Recommendation if necessary.”

(Id.).

The retainer agreement included a

“Representations” clause providing:
It is expressly agreed and understood that no promises or guarantees as
to the outcome of The Firm’s representation have been made to client
by The Firm. It is further expressly understood and agreed that no other
representations have been made to Client, except for those set out in
this Agreement.
(Id.).

The retainer agreement also included a clause titled “Prior Agreement

superseded”, which confirmed: “This Agreement constitutes the sole and only
agreement, by and between the parties. It supersedes any prior understandings or
written oral agreements between the parties concerning the subject matter discussed
herein.” (Id.).
A month after signing the retainer agreement, Bernstein filed petitioner’s state
habeas petition (on November 24, 2014), and mailed petitioner a copy of the
pleading on December 4, 2014. (Doc. 1, p. 34 and Ex. C). Petitioner suggests
Case No. 1:17cvl98-MW-CJK

L

1 A

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 15 of 22

Page 15 of22

Bernstein acted in “bad faith” by filing the state habeas petition instead of a Rule
3.850 motion, because the former was beyond the scope of the retainer agreement.
Bad faith, however, “implies the conscious doing of a wrong because of dishonest
purpose or moral obliquity”. ■ Bad Faith, Black’s Law Dictionary (6th ed. 1990).
Petitioner was not “wronged” by Bernstein’s filing the state habeas petition; rather,
he benefitted from, the filing because it tolled his federal limitations clock for an
additional 30 days.
After the state habeas petition was denied on December 10, 2014, Bernstein
prepared and filed petitioner’s original Rule 3.850 motion on February 12, 2015,
prior to petitioner’s AEDPA clock expiring. Bernstein provided petitioner with a
copy of the pleading on March 20, 2015. (Doc. 1, p. 36). On July 24, 2015,
Bernstein filed an amended Rule 3.850 motion adding an additional ground for
relief. (Doc. 22, Ex. E, pp. 25-52). After the state circuit court dismissed the original
and amended motions.on July 24, 20,15, for lack of proper verification (doc. 22, Ex.
E, pp. 53-54), Bernstein mailed petitioner the documents necessary for proper
verification within one week (on July 31, 2015). (Doc. 1, Ex. E). Petitioner signed
and returned the verification to Bernstein’s office on August 4, 2015. (Doc. 22, Ex.
E, p. 75). Bernstein was out of the office from July 31, 2015, to August 10, 2015,
due to his father’s death. (Doc. 22, Ex. E, pp. 55-56,
Case No. 1:17cvl98-MW-CJK

6, 7). Bernstein explains:

Case l:17-fcv-00198-MW-CJK Document 29 Filed 11/06/18 Page 16 of 22

Page 16 of 22

Undersigned arrived back from New York on August 10, 2015,
and began the tedious task of catching up with the numerous matters
awaiting my return. The defendant’s executed oath inadvertently did
not reach my desk.
It was thereafter brought to undersigned’s attention, due to a
phone call from the defendant requesting a status update on his motion,
that the amended motion was never, in fact, filed with th[e] Court.
(Doc. 22, Ex. E, p. 56,

7-8). Bernstein “immediately” contacted the Assistant

State Attorney and obtained not only the State’s consent to an extension of time for
petitioner to file his verified Rule. 3.850 motion, but also the State’s waiver of any
state-law limitations defense to the late filing. (Doc. 22, Ex. E, p. 56). The state
circuit court granted the extension of time and considered petitioner’s second
amended Rule 3.850 motion timely filed. (Ex. E, p. 92). After the state court denied
relief on the merits on June 20, 2016, (Ex. E, pp. 93-233), Bernstein wrote petitioner
on June 28, 2016, advising him of the denial of his postconviction motion. (Doc. 1,
Ex. F). Bernstein also advised petitioner that he could not identify any good-faith
basis to appeal, but told petitioner of his right to appeal pro se. (Id.). Bernstein then
informed petitioner that “this letter will mark the end of this firm’s representation of
you in this matter.” (Id.). Bernstein mailed petitioner all relevant documents. (Doc.
1, Ex. G). Ten months after Bernstein’s representation concluded, petitioner wrote
Bernstein on April 21, 2017, seeking Bernstein’s assistance in determining his
federal filing deadline. (Doc. 1, Ex. L, Pet’r’s Notice, April 21, 2017). Bernstein
Case No. 1:17cvl98-MW-CJK

i

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 17 of 22

Page 17 of22

responded on April 28, 2017, providing petitioner detailed information about his
case, including relevant filing dates and deadlines. (Doc. 1, Ex. J). Petitioner filed
his federal habeas petition three months later, on July 31, 2017.
Petitioner’s allegations and supporting documents show that Bernstein did not
abandon petitioner. Bernstein frequently communicated with petitioner and filed
necessary pleadings on his behalf throughout his representation. Bernstein made
two errors - failing to have petitioner sign and properly verify the original Rule 3.850
motion in February 2015, and failing to discover that petitioner returned the signed
verification in August 2015. These errors, however, amount to simple negligence or
excusable neglect, not abandonment, bad faith, dishonesty or other misconduct
rising to the level of an “extraordinary circumstance”. See, e.g., Jones, 499 F. App’x
at 952 (holding that petitioner was not entitled to equitable tolling due to attorney’s
failure to have petitioner sign and properly verify the state postconviction motion
■

before filing it - that kind of error was “simple negligence”); Holland, 560 U.S. at
652 (“[A] garden variety claim of excusable neglect, such as a simple miscalculation
that leads a lawyer to miss a filing deadline, does not warrant equitable tolling.”).
Petitioner’s equitable tolling argument relies heavily on a third -alleged-ferrof
by counsel - Bernstein’s failure to promptly notify petitioner that his state habeas
petition was denied in December 2014; Even assuming petitioner can prove this
Case No. l:\lcvl98-MW-CJK

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 18 of 22

Page 18 of22

allegation, this error, viewed in the context of counsel’s conduct as a whole, suggests
negligence, not ^seri'ous attorney misconduct as that concept has developed in

r

Lawrence, Holland, Maples and Cadet. Mofeover, petitioner must still show that
Bernstein’s error prevented him from timely filing his federal petition despite his
own diligent effort. Petitioner cannot make that showing. Petitioner admits that
when Bernstein mailed him a copy of the original Rule 3.850 motion in March 2015,
he (petitioner) “was under the impression that 9.141 [state habeas petition] might
have got denied due to 3.850 being filed.” (Doc. 1, p. 36). Petitioner also admits
receiving Bernstein’s June 28, 2016, letter notifying him that the denial of
petitioner’s Rule 3.850 motion “mark[ed] the end of [Bernstein’s] representation”.
(Doc. 1, p. 37 and Ex. F). In correspondence nine;months later, petitioner again
confirmed: “I always assumed it [the state habeas petition] got denied because you
filed my 3850.” (Doc. 1, Ex. L (Pet’r’s Letter to Bernstein, April 21, 2017)). These
allegations belie petitioner’s assertion that he “could not reasonably be expected to
have filed his federal habeas petition, while under impression that his 9.141 petition
was still active.” (Doc. 1, p. 39).
A reasonably diligent prisoner who suspected, as petitioner did, that counsel
forgot to notify him of an important dispositive order, and who had all the case
information necessary to make an inquiry himself with the clerk of court, would have
Case No. l:17cvl 98-MW-CJK

i

Case l:17-cv-00198-MW-CJK Document 29 Filed ll/q6/18 Page 19 of 22

Page 19 of22

made that effort far prior to the time petitioner did.,. Petitioner waited over two years
- until May 15, 2017 - to contact the First DCA to confirm his suspicion. (Doc.1,
Ex. H). Moreover, once Bernstein confirmed to petitioner in his April 28, 2017,
. -7

letter (doc. 1, Ex, J).that the state habeas petition was denied on December 10, 2014,
and that petitioner’s federal -habeas limitations period expired in early 2015,
petitioner inexplicably waited another 2% months, until July 31, 2017, to file his
federal petition.4 That is not reasonable diligence, especially since all of petitioner’s
grounds for federal habeas relief are reiterations of the grounds presented in his
:

v

\

^counseled direct appeal and postconviction proceedings. (Doc. l, pp. 7-26 (federal
petition); Doc. 22, Ex. E, pp. 55-91 (second amended Rule 3.850 motion)).
Thus, although petitioner requests an evidentiary hearing on. the issue of
equitable tolling, (doc. 28), a hearing would serve no useful purpose because the
specific, non-conclusory facts and documents he proffers, even if true, are not
enough to make his petition timely under § 2244(d); See Chavez w Sec y, Fla. Dep ’t
of Corr., 647 F.3d 1057, 1060-61 (11th Cir. 2011) (affirming denial of evidentiary
hearing on equitable tolling claim based on well settled standard that “if a habeas
petition does not allege enough specific facts that, if they were true, would warrant

4 Petitioner apparently received Bernstein’s April 28, 2017, letter on May 16, 2017. (Doc. 1, Ex.
J).
Case No. 1:17cvl98-MW-CJK

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 20 of 22

'l

Page 20 of 22

relief, the petitioner is not entitled to an evidentiary hearing.” (citing Allen v. Sec ’y,
Fla. Dep’t ofCorr., 611 F.3d 740,763 (11th Cir. 2010))). Petitioner cannot establish
that he pursued his federal rights diligently; that Attorney Bernstein engaged in
serious attorney misconduct qualifying as an “extraordinary circumstance”; and that
Bernstein’s conduct “stood in [petitioner’s] way and prevented timely filing” of the
federal petition. Holland, 560 U.S. at 649. Petitioner’s untimely petition should be
dismissed.
CERTIFICATE OF APPEALABILITY
Rule 11(a) of the Rules Governing Section 2254 Cases in the United States
District Courts provides: “[t]he district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” If a certificate is
issued, “the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2).” 28 U.S.C. § 2254 Rule 11(a). A timely notice
of appeal must still be filed, even if the court issues a certificate of appealability.
See 28 U.S.C. § 2254 Rule 11(b).
“[Section] 2253(c) permits the issuance of a COA only where a petitioner has
made a ‘substantial showing of the denial of a constitutional right.’” Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003) (quoting 28 U.S.C. § 2253(c)). “At the COA
stage, the only question is whether the applicant has shown that ‘jurists of reason
Case No. 1:17cv198-MW-CJK

--I

U'

hl

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 . Page 21 of 22
• f'

Page 21 of22

could disagree with the district court’s resolution of his constitutional claims or that
jurists could conclude the issues presented are adequate to deserve encouragement
to proceed further.’” Buck v. Davis, 580 U.S. —, 137 S. Ct. 759, 774 (2017) (<quoting
Miller-El, 537 U.S. at 327). “When the district court denies a habeas petition on
procedural grounds without reaching the prisoner’s underlying constitutional claim,
a COA should issue when the prisoner shows, at least, that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000) (emphasis added). The petitioner here cannot make the requisite
showing. Accordingly, the court should deny a certificate of appealability in its final
order.
The second sentence of Rule 11 (a) provides: “Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate should
issue.” Rule 11(a), Rules Governing Section 2254 Cases. If there is an objection to
this recommendation by either party, that party may bring such argument to the
attention of the district judge in the objections permitted to this report and
recommendation.

Case No. l:\7cvl98-MW-CJK

Case l:17-cv-00198-MW-CJK Document 29 Filed 11/06/18 Page 22 of 22

1:
ft*;

,s

Page 22 of 22

Accordingly, it is respectfully RECOMMENDED:
1. That respondent’s motion to dismiss (doe. 22) be GRANTED.
2. That the petition for writ of habeas corpus (doc. 1), challenging petitioner’s
judgment of conviction and sentence in State of Florida v. Lionel L. Robinson,
\

Alachua County Circuit Court Case No. 2010-CF-4836, be DISMISSED WITH
PREJUDICE.
3. That the clerk be directed to close the file.
4. That a certificate of appealability be DENIED.
At Pensacola, Florida this 6th day of November, 2018.

Is/

Charles I. Kahn. Ir.

CHARLES J. KAHN, JR.
UNITED STATES MAGISTRATE JUDGE

NOTICE TO THE PARTIES
Objections to these proposed findings and recommendations may be filed
within 14 days after being served a copy thereof. Any different deadline that may
appear on the electronic docket is for the court’s internal use only, and does not
control. A copy of objections shall.be served upon the magistrate judge and all other
parties. A party failing to object to a magistrate judge's findings or recommendations
contained in a report and recommendation in accordance with the provisions of 28
U.S.C. § 636(b)(1) waives the right to challenge on appeal the district court's order
based on unobjected-to factual and legal conclusions. See 11th Cir. R. 3-1; 28 U.S.C.
§ 636.

Case No. 1: 17cvl98-MW-CJK

/

L

S..

y

i

f

k
i
r
1'
*
t

T
r

5

f

ji

i
T

t

5

\

i

T

£
*
*

/

«,

/
/.

t

y\

X

>
I

/
V

\

\

4

t

/

i

t

*

I

/

f

I
f

i

*

*

>*

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

FILED
U.S. COURT OF APPEALS
ELEVENTH CIRCUIT

No. 19-10428-HH

AUG 1 9 2020
David J. Smith
Clerk

LIONEL ROBINSON,
Petitioner - Appellant,
versus
STATE ATTORNEY FOR FLORIDA,
Respondent,
and
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.

Appeal from the United States District Court
for the Northern District of Florida
ON PETITIONfSl FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: GRANT, LUCK and FAY, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service op the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

*

i.
i
2
*
t

T

iS
I

I

5

1

P-A

"t
P
)

f4'
*

i

i.

5
f
i.

f
s

7f

*

!

r-

'f v"

r

*

+-•H
%

4

i

'X*-'

/
/-

!

*
•*T

(
'

\ :>£

Federal
Legal
Center

*
,

x

DAVID JAY BERNSTEIN, P.A.
FEDERAL LEGAL CENTER
A PRIVATE LAW FIRM
660 East Hillsboro Blvd., Suite 106
Deerfield Beach, FL 3344
Phone: 954-747-9777
Facsimile: 954-919-1502
ADMITTED FL, NY, & NJ

September 23,2014
Robinson, Lionell
DC Number: G15804
110 Melaleuca Drive Crawfordville
Florida 32327-4963
Re: Retainer Agreement

Vj'.

f

1
;

Dear Mr. Lionel Robinson,
This Agreement confirms your intention to retain this firm to represent you in the capacity described
below in the paragraph entitled: “Purpose of Representation”. This Agreement sets forth the agreement
concerning our representation of you. This Agreement shall become effective upon your signing a copy of
said Agreement. A statement of your rights and responsibilities, as well as those of this firm, is described
hereto and by signing this Agreement, you acknowledge that you have received and reviewed said
Agreement.
This Retainer Agreement is made between Mr. Lionel Robinson hereinafter referred to as "Client", and
Law Offices of David Jay Bernstein, PA /Federal Legal Center - A Law Firm, hereinafter referred to as
"The Firm.”
Purpose of representation
Client hereby retains and employs The Firm to research, prepare, and file a 3850 Motion; reply to any
government answer; and file objection to magistrate judge’s Report and Recommendation if necessary.
Attorney's Fee
In consideration of services rendered and to be rendered by The Firm, Client agrees to pay for The Firm's
tJrrf- <>♦ 4>,.«

■. -'?<> rptrv ‘^OOO.OO C1’“rU

tV>t

fee; ’

Payment Schedule
You have expressed an inability to pay the entire fee at this time. As a ourtesy and accommodation to
you, The Firm agrees to accept an initial payment of $1500 to review ti e case. The balance of $3500 is to
be paid before the firm files the motion.
•i
/
Representations
It is expressly agreed and understood that no promises or guarantees es to the outcome of The Firm's
representation have been made to Client by The Firm. It is further exp essly understood and agreed that
no other representations have been made to Client, except for those set ( it in this Agreement.

Expenses
!
‘

l

1

\

rT..
bonds, records, copy costs certified rnmVe tr
• +
,0t irnitet to court costs, consultants' costs
photographs, expert and other witness fees’ co^SofLve^W°Sltl01!/S’teIeph0ne Calls’ duPlication costs,
Earkms, and anv nth.r „„ ^Tf.T Client
amount ol $00.00 which shall be deposited in The F,wft * T? ^ ^ “ exPense deposit in the
expenses in the trust account as the expenses are inclined
^ ^ draW a8ainst

s“

't -*provMe

limitation: Chart's failure to°tody^y fKsmTemen'S'lrT '"'T* f°r

^

reason' including without

subject to the professional responsibility requirements to which Attorn”,"*
se™ «fn» F™. uny of Client's
Ftrm for fees and/or expenses and any surplus, then remaining shallbe^ft'dTd to fflelf8
^

The rights set forth in this A
greement are subject to the professional responsibility requirements
regulate Attorneys.
which
i

Ka=5srs£ rgg-sasat-,

discussed herein.
/
. /
;

have ttSSaCSJA^mtttl^SS'stid t££? ' **" "

i

„

agreements between the partes concerning the subject matS

e that I

Signed and accepted on this A/7'Vv cf Seflfc/H&i/
/

/./

yfX

2014.

,

t^X* • lilUllVI A%uu» nm. .t

igned^d acpejrted in this

/^Dav of Ookhll,
2014.

^BAM00^AY BERNSTEIN, ESQ.
.• David Jay Bernstein, PA/
FEDERAL LEGAL CENTER — A Law Firm
660 East Hillsboro Blvd., Suite 106
Deerfield Beach, FL 33441
Florida Bar No. 38385

V

\

<

/

